          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Audit Report

Contract Transition Activities at
the Nevada Test Site




OAS-M-08-02                November 2007
 DOE F 1325.8
 (08-93)
 United States Government                                                                 Department of Energy



 memorandum
     DATE: November 26,2007                                           Audit Report No: OAS-M-08-02

REPLY TO
ATTN OF: IG-32 (A06LV045)

SUBJECT: Audit of "Contract Transition Activities at the Nevada Test Site"

       TO: Deputy Administrator for Defense Programs, National Nuclear Security
              Administration

                INTRODUCTION AND OBJECTIVE

                The Nevada Test Site (Test Site) is a unique combination of Federally-owned land
                and facilities located in a remote area approximately 65 miles northwest of Las
                Vegas, Nevada. The Test Site represents the United States' unique capability to
                support nuclear testing and complex dynamic experiments that involve nuclear and
                hazardous materials. Bechtel Nevada was the management and operating contractor
                of the Test Site from 1996 through June 30, 2006.

                In February 2005, the National Nuclear Security Administration (NNSA)
                competitively bid the contract to manage the Test Site and in March 2006 awarded
                the contract to the National Security Technologies, LLC (NSTec). NSTec is a limited
                liability company formed as a partnership between Northrop Grumman, AECOM,
                CH2M Hill, and Nuclear Fuel Services. The five-year contract is valued at
                approximately $500 million annually, with the potential for five additional years
                based on adequate performance.

                NNSA allowed three months for the transition between contractors to be completed.
                The objective of the audit was to determine whether contract transition activities were
                effective in protecting the government's interest and whether costs incurred were
                allowable, allocable, and reasonable.

                CONCLUSlONS AND OBSERVATIONS

                The Nevada Site Office's (Site Office) management of contract transition costs and
                activities at the Test Site was not fully effective in safeguarding Federal records and
                ensuring contract terms and Federal regulations were followed. Specifically, we
                found that some employee concern records were not retained as required by Federal
                regulation during the transition and $86,112 in questionable relocation costs were
                incurred.
The Site Office did not ensure Federal records were maintained. Specifically,
Bechtel Nevada (Bechtel), the previous Test Site contractor, destroyed
supporting documentation from en~ployeeconcern investigations. According
to Department of Energy Orders and Federal Administrative Record
Schedules, employee concern files, including supporting documentation, are
Federal records and should be retained as such for four to seventy-five years.
Bechtel's contract specified that employee concern files were company-owned
files. Howevcr the contract also stipulated that, upon completion or
ternlination of the contract, copies of contractor-owned records would be
provided to the Department, upon the request of the government. The Site
Office, however, did not specifically request copies of the employee concern
files because the staff believed the Bechtel Nevada contract required retention
of employee concerns records. The Site Office informed us that the current
contract with NSTec does not require the current contractor to retain such
records. According to Site Office staff, the NSTec contract will be modified
to require the retention of en~ployeeconcern files as Federal records.

Our review also identified some relocation expenses for new NSTec
employees that were approved erroneously. Specifically, NSTec reimburscd
employees for relocation expenses above that allowed by the Federal travel
regulations and their contract. For example, Federal regulations allow each
eligible individual to be paid miscellaneous expcnses of $1,000 without
receipts or supporting documentation. NSTec, however, reimbursed
individuals for $5,000 of expenses without supporting documentation. As a
result, NSTec paid $24,000 in unsupported miscellaneous expenses. Overall,
we questioned $86,112 in relocation costs. We provided details of the
questioned relocation costs to the contracting officer for an allowability of
cost determination.

RECOMMENDATIONS

We recommend that the Manager, Nevada Site Office direct the Contracting
Officer to:

    1. Modify the NSTec contract to require the retention of employee
       concern files consistent with Department Orders and Federal
       Administrative Record Schedules; and,

   2. Determine the allowability of questioned relocation costs.

MANAGEMENT COMMENTS & AUDITOR RESPONSE

Management agreed with our report and corresponding recommendations.
Management has initiated corrective actions on the recommendations.
    Management's comments and actions were responsive to our recommendations
    and are attached to this report.

    SCOPE AND METHODOLOGY

    We reviewed the transition costs and activities related to the change in prime
    contractors at the Test Site to determine if activities were effectively managed
    and costs were in compliance with contract terms and Federal acquisition
    regulations. The audit was conducted from June 2006 through September
    2006 and from April 2007 through September 2007 at the Site Office.

   We conducted this performance audit in accordance with generally accepted
   government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a
   reasonable basis for our findings and conclusions based on our audit objective.
   We believe that the evidence obtained provides a reasonable basis for our
   findings and conclusions based on our audit objective. The audit included test
   of controls and compliance with laws and regulations related to contract
   transition activities. Because our review was limited, it would not necessarily
   have disclosed all internal control deficiencies that may have existed at the
   time of our audit. Also, we examined the establishment of performance
   measures in accordance with the Government Performance and Results Act of
   1993, as it related to the audit objective. We determined that no measures
   exist directly related to contractor transition activities. Finally, we obtained
   and reviewed computer generated data in order to satisfy our audit objective.
   We performed procedures to validate the reliability of the information as
   necessary to satisfy our audit objective. The criteria used to evaluate the costs
   and activities include the terms of the contracts, Federal Travel Regulations,
   Chapters 301 and 302, and Federal Acquisition Regulation 31.

   Management waived an exit conference.




                                 /    ~ksistantInspector General
                                         for NNSA and Energy Audits
                                      Office of Inspector General

Attachments

cc: Chief of Staff
    Director, Policy and Internal Controls Management, NA-66
    Manager, Nevada Site Office
    Team Leader, Audit Liaison Team, CF- 1.2
                                                                   Attachment 1

                      RELATED REPORT


Contruct Transition Activities at Los Alclmos National Lahorulog~(OAS-L-
07-1 6 , August 7,2007). This audit found that pre-existing conditions
identified during the transition and additional costs resulting from the change
in contractors present financial and operational challenges. Los Alamos
National Security, LLC (LANS) reported 58 conditions in major risk areas
such as fire protection, nuclear criticality safety, environmental cleanup, cyber
security, and weapons quality that require corrective action. Plans to correct
some of the conditions will require a substantial amount of time and effort.
LANS will also incur increased expenses related to the terms of the LANS
contract. The Department and LANS agreed that increased costs could be
absorbed through efficiencies and cost cutting measures, including voluntary
attrition, redeployllent of staff, and reductions in non-labor items (travel,
materials, equipment, indirect costs, and subcontract services).
                                                                                          Attachment 2



                          Department of Energy
                    Nat~onalNuclear Securlty Admln~slrat~on
                              Viashsngton DC, 23586

                                O c t o t ~ e 3~1 , 2   -1-




MEMOll4hl)L \1 FOR                (~corgeM.' C'ollard
                                  4ssistanl Inspector C~e~icral


                                   Michael C. Kan

                                      for Management and I d m ~ n ~ s t r a t ~ n ~ i

                                   Commcnrs to Draft Rcpor-Ion N-1.S Contract
                                   Transition: A06I.\.i)lj; 2000-2 1538


I.he National Nuclear Security Adrnin~strac~on         (\SS.A) apprcciatcs the
opportunlt) to rc\ic\\ the lrispcc~orGeneral's draft repon. " h ~ l a n a g e l ~ ~ c l ~ t
Controls o \ c r Contracr Transition Acli\ities at the \ f \ a d a Test Site." LVc
understanti that thrs audit \\as to determine \\lietlier contract transition
activities \\.ere cffceti\ c i l l protecting the zo\ emrnrnt's 111tcrcstand
\\-licthcrcosts incurred \\ ere allowable, allocable. and rrasonablc.

N N S A apprcciatcs the Iti's efforts. M!c agree \ \ ~ t hthe rcpon and
corrcspond~ngrscornmcndat~ons.In boll1 cases. rhe C'ontracling Office1
has ~nitiaredthe correct]\e actions.

Should you ha\ e an! questions almut Ihis response. plcasc contact K~chard
SpeideI. D~rector.Polley and Internal Conrrols \lanagcment I'he copies
orthis signed nien~oralidumare sen1 electron~call!In .pdf folinar. rhcrr
\\ 111 be 110 other hard cop)



cc:     Gerald -lalhot. blanagcr. Nevada Site Office
        Da\,id Boyd. Scnior Procurcment Executii e
        Karen Boardman. Director. Senrice Center
                                                                        IG Report No. OAS-M-08-02

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this fonn,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization -


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comnlents with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your co~nmentswould be appreciated and can be provided on the Customer Response Form
                                       attached to the report.
